No. 19-7

In the Supreme Court of the United States
SEILA LAW LLC,
Petitioner,
v.
CONSUMER FINANCIAL PROTECTION BUREAU,
Respondent.
CERTIFICATE OF SERVICE
I, Andrew J. Pincus, counsel for the Chamber of Commerce of the United
States of America hereby certify that on this 16th day of December, 2019, I caused
three copies of the Brief of the Chamber of Commerce of the United States of
America as Amicus Curiae in support of petitioner to be served by overnight
delivery on the following counsel:
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, NW
Washington, DC 20006
Tel: (202) 223-7300
kshanmugam@paulweiss.com

Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
Tel: (202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel of Record for Petitioner
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
Tel: (202) 389-5000
Paul.clement@kirkland.com
Court-Appointed Amicus Curiae

Counsel of Record for Respondent

I further certify that all parties required to be served have been served.
/s/ Andrew J. Pincus
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
apincus@mayerbrown.com

